U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Jones v. United States, No. 20-6802
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 4,
2021. The government’s response is now due, after one extension, on March 29, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 23, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6802
JONES, NOEL
USA

SAMANTHA JEAN KUHN
OFFICE OF THE FEDERAL PUBLIC DEFENDER
FOR THE EAST
500 POYDRAS STREET
STE. 318
HALE BOGGS FEDERAL BUILDING
NEW ORLEANS, LA 70130
504-589-7942
SAMANTHA_KUHN@FD.ORG

